HHS/OIG, Audit -"Audit of Nevada's Medicaid Payments for Vaccines Obtained Through the Vaccines for Children
Program for Federal Fiscal Year 2003,"(A-09-04-00048)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Nevada's Medicaid Payments for Vaccines Obtained Through the Vaccines for Children Program for Federal
Fiscal Year 2003," (A-09-04-00048)
November 19, 2004
Complete
Text of Report is available in PDF format (469 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine, for Federal fiscal year 2003, whether Nevada made unallowable Medicaid payments
to providers for vaccines obtained through the Vaccines for Children (VFC) program.  Nevada made $7,917 of potentially
unallowable Medicaid payments to fee-for-service (FFS) providers for vaccines obtained at no cost through the VFC program.  In
addition, the paid claims data that Nevada will use to establish future Medicaid managed care capitation rates included
potentially unallowable payments for VFC vaccines and payments above the administration cap.  We recommended that
Nevada implement controls to identify and prevent unallowable Medicaid payments to FFS providers for VFC vaccines and implement
controls to identify and exclude unallowable Medicaid payments from the paid claims data used to establish managed care
capitation rates.